<html>
<title> - [H.A.S.C. No. 109-88] THE ARMY'S M1114 UP-ARMOR HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE (UAH) DISTRIBUTION STRATEGY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 109-88]

 THE ARMY'S M1114 UP-ARMOR HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE 
                      (UAH) DISTRIBUTION STRATEGY

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 20, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                     U.S. GOVERNMENT PRINTING OFFICE

32-994 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                    Jesse Tolleson, Program Analyst
                Andrew Hunter, Professional Staff Member
               Paul Arcangeli, Professional Staff Member
                     Curtis Flood, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Thursday, October 20, 2005, The Army's M1114 Up-Armor High 
  Mobility Multipurpose Wheeled Vehicle (UAH) Distribution 
  Strategy.......................................................     1

Appendix:

Thursday, October 20, 2005.......................................    35
                              ----------                              

                       THURSDAY, OCTOBER 20, 2005
 THE ARMY'S M1114 UP-ARMOR HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE 
                      (UAH) DISTRIBUTION STRATEGY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Cody, Gen. Richard A., Vice Chief of Staff, U.S. Army............     6
Harvey, Hon. Francis J., Secretary of the Army...................     4

                                APPENDIX

Prepared Statements:

    Hunter, Hon. Duncan..........................................    39

Documents Submitted for the Record:

    Force XXI Battle Command, Brigade-and-Below (FBCB2)..........    59
    Information Paper, Providing Force Protection Capability to 
      Iraq: 4th Infantry Division Up Armored HMMWV (UAH) Flow to 
      Iraq.......................................................    66
    Slides presented by General Cody.............................    47
    Timeline for Vehicle Allocation in Theater...................    52
    U.S. Casualty Status.........................................    61
    United States Marine Corps 90 Day Casualty Report............    58

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
 THE ARMY'S M1114 UP-ARMOR HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE 
                      (UAH) DISTRIBUTION STRATEGY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, October 20, 2005.
    The committee met, pursuant to call, at 9 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    This morning, the committee continues its ongoing review of 
Operation Iraqi Freedom and force protection issues. For the 
past two years, we have had, as one of our highest priorities, 
the timely provision of adequately armored tactical vehicles to 
our men and women in combat.
    Today we will address a directly related issue having to do 
with the Army's distribution policy for new production, M1114 
up-armored Humvees. The committee must fully understand the 
rationale behind the Army's tactical vehicle distribution 
policy that calls for the delivery, beginning in late July of 
this year, of new production up-armored Humvees to the fourth 
infantry division, currently based in Fort Hood, Texas, while 
their exists an immediate need for the vehicles in United 
States central command Theater of Operations, particularly in 
Iraq.
    With us today to examine these issues are two distinguished 
public servants representing the U.S. Army, the Honorable 
Francis J. Harvey, Secretary of the Army, and General Richard 
A. Cody, Vice Chief of Staff of the Army. Gentlemen, thanks for 
being with us this morning. We thank you for your service to 
our country and it is good to see you both again.
    This committee established force protection, and 
specifically, the adequacy of tactical-wheeled vehicle 
protection as a high priority area of interest and concern. 
This marks another hearing in a continuing series of hearings 
and briefings the committee has held on force protection 
issues.
    At issue today is whether the best armor solution is being 
provided to the warfighters who are fully engaged against a 
very adaptive enemy. Terrorists continue to employ roughly 30 
daily IEDs, or improvised explosive device attacks against our 
troops in Iraq. Until we have a better solution, adding armor 
to our military vehicles and expediting new armored vehicles to 
theater appears to be our best course of action to protect our 
troops.
    Our troops deserve nothing less than the best possible 
protection. And they need to know that not only is the best 
equipment being provided to them, but it is being done in a 
timely manner. And that brings us to the focus of today's 
hearing.
    Why is a division that is still based here in the United 
States and not scheduled to complete deployment to theater 
until after the first of next calendar year receiving 824 new 
production up-armored Humvees while there remains an immediate 
need in theater for these vehicles for both the Army and the 
Marine Corps? I understand the Marines have an up-armored 
Humvee requirement of 2,814, but only have 744 of these 
vehicles on-hand in Iraq, just over 25 percent of the 
requirement. I also understand that the Army has fulfilled its 
theater requirement for up-armored Humvees, yet the third ID, 
the division taking most of the Army casualties in Iraq, has 
less than 20 percent of this total requirement.
    In addition, the Army is still operating with close to 
1,800 Humvees that have only level III protection. It would 
appear that there are immediate tactical vehicle armor needs 
that warrant a more immediate response. Units in theater have 
indicated a need for a level I armor solution. While we 
continue to emphasize parallel efforts for rapid development in 
fielding the systems to counter IEDs and persistent 
surveillance solutions, we must maintain a high priority of 
fielding the up-armored Humvees to protect our warfighters.
    We need to better understand why the Army has a policy that 
does not appear to be meeting the objective in the most timely 
possible manner.
    So Secretary Harvey and General Cody, we look forward to 
hearing your assessment of the rationale behind the current 
M1114 up-armored Humvee distribution plan.
    And what I would like to do is direct our witnesses in the 
committee to the Army plan. In fact, maybe we could move that 
chart up here to where the witnesses can see it. I don't know 
if you see the Army, the Army plan that has got the arrows it 
is over to the left of the room.
    Basically what that shows is that we have had three 
traunches of Humvees, of up-armored Humvees, which is 
considered to be the gold standard for protection, troop 
protection. Turn it a little bit this way so members can see it 
also.
    You had, in July, some 75 M1114s moving not to Iraq, but to 
Fort Hood. In August, 319 of the same up-armored Humvees moving 
not to Iraq but to Fort Hood, and in September, 430 Humvees 
moving not to Iraq, but to Fort Hood. Now understanding that 
the fourth ID is going to Iraq, we understand that at some 
point, those vehicles are going to be married up with the 
personnel of the fourth infantry division when they get to the 
theater after the first of the year. Nonetheless, it appears 
that there is a fairly substantial delay for the first traunch, 
much more than the last traunch, but a 5-month delay for the 75 
Humvees going to Iraq.
    There is approximately a 4-month delay for the second 
traunch of 319 Humvees which are built, completed, 
manufactured, and here in the States, and in September, 430 
Humvees delivered not to Iraq, but to Fort Hood. That is 
approximately a 3-month delay.
    Now, understanding that at some point, those are going to 
be married up with fourth ID troops, when the fourth ID is 
totally deployed to Iraq after the first of the year, the 
question that the committee has, gentlemen, is why couldn't we 
be utilizing those up-armored Humvees, which are considered to 
be the gold standard in protection for our troops, why couldn't 
they be in theater now?
    Now, I understand that the Army has stated that they need 
to do C4ISR upgrades, so-called blue force tracking primarily 
and put those systems in those up-armored Humvees. Our staff in 
being briefed on this by the Army has been instructed that this 
takes about one to two days to put a blue force tracking system 
in place. That doesn't explain, gentlemen, or take a big piece 
of these four--three-, four- and five-month delays of these 
fairly significant numbers of up-armored Humvees going to 
troops who don't have them in theater, and are having to use 
level II and level III armor on a daily basis.
    So gentlemen, thank you for being with us. We think this is 
an important issue. And I am concerned that this is going to 
become a--that this holding armor back and moving it into 
theater with forces is going to end up becoming the standard 
method of delivering armor and troops to theater.
    So we look forward to your testimony today. And before we 
do that, let me turn to my partner on the committee, the very 
distinguished gentleman from Missouri, Mr. Skelton, for any 
remarks he would like to make.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 39.]

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Senator Harvey, General Cody, welcome. We 
thank you for being with us. This is a very important hearing. 
And Mr. Chairman, let me commend you for calling this hearing. 
I agree with you that no issue is more important to our 
committee than ensuring our soldiers in Iraq have all the force 
protection equipment that they need, and I share your concern 
about the Army's distribution strategy on this issue.
    Although I understand the Army's desire to have the 4th 
infantry division trained on the equipment they will be 
fighting, I am troubled by the decision to detour the M1114 up-
armored Humvees to Texas instead of sending them to Iraq as 
soon as possible. I look forward to hearing the Army's 
explanation for this decision. Even more importantly, however, 
I look forward to hearing how the Army plans to get the highest 
quality armored vehicles to our troops as fast as possible in 
the future.
    Today in Iraq, 95 percent of all vehicles have either level 
I armor straight from the factory, or level II armor kits. 
Although our level II armor kits seem to be working and are 
providing good protection, they have been put on Humvees that 
weren't built to that their weight. These vehicles are wearing 
down rapidly. And I believe the Army should commit now to 
replace high mileage level II Humvees in Iraq with new up-
armored vehicles thus requiring continuing production in a high 
rate and perhaps even increasing production of up-armored 
Humvees for at least the next year, or maybe longer.
    We have seen several times in last two years where the Army 
has allowed up-armored Humvee production and armored kit 
production slow down when it appeared their requirements were 
being close to being met. Let's not make that mistake again. I 
am encouraged that the Army is moving toward a new version of 
the up-armored Humvee called the M-1151, whose design the 
Government will own. The Army will be able to produce M-1151s 
faster than they have been able to do so with the M1114 by 
diversifying suppliers.
    Now as I stated at our last hearing, gentlemen, on armored 
vehicles, I also believe we need to think about now about 
getting beyond the Humvee to tactical vehicles designed for the 
kind of fights we are currently engaged in. I understand that 
next year the Army will host a demonstration day for industry 
to show what kind of tactical wheeled vehicles they can produce 
with today's technology. Vehicles that are designed for light 
combat from the ground up with V shaped hulls, and integrated 
armor will protect our soldiers, I think, even better. I urge 
the Army to continue with its plan for an industry 
demonstration date. I hope you will notify Congress of that 
when it comes to pass.
    I know that the Army leadership is dedicated to its 
soldiers and wants to protect them. We here on this committee 
are no less committed to this effort as evidenced by the 
hearings and the questions we put to previous witnesses before 
today.
    We can only help when we are informed of Army decisions in 
time. My view on this issue such as today's is where we have 
expressed great interest over and over again. Early 
communication--I will repeat that again--early communication 
with us is a mandate. It is not just a mere courtesy. Thank 
you.
    The Chairman. Thank the gentleman.
    Again, gentlemen, thank you for being with us this morning 
to talk about this important issue. Secretary Harvey, the floor 
is yours sir.

   STATEMENT OF HON. FRANCIS J. HARVEY, SECRETARY OF THE ARMY

    Secretary Harvey. Chairman Hunter, Congressman Skelton and 
members of the committee, General Cody and I are here today to 
discuss the Army's efforts to provide the Marines with M1114 
up-armored Humvees.
    The Chairman. Secretary Harvey, without objection, your 
total written statement will be taken into the record as will 
General Cody's, so feel free to depart from it if you want to 
and the written statement will be in the record.
    Secretary Harvey. Thank you, Mr. Chairman. As I said, we 
are here today to discuss the Army' efforts to provide the 
Marines with M1114 up-armored Humvees while simultaneously 
upgrading the Army's 4th infantry division M1114s with 
communication equipment that significantly improves soldiers' 
situational awareness, combat effectiveness and fratricide 
prevention.
    In a classified letter to you, Mr. Chairman, dated 
September 22, General Cody explained the joint Army, Marine 
Corps plans for M1114 production and allocation to meet the 
immediate needs of both services.
    While I am limited in the details, I can provide in this 
unclassified forum, the plan agreed upon in July of 2005 allows 
the Marine Corps to meet its M1114 requirements in April 2006, 
and the Army to meet its M1114 requirements 16 months later in 
July of 2007.
    Under this joint Army-Marine Corps agreement, the 824 up-
armored Humvees allocated to the Army would first be sent to 
Fort Hood to install the 4th infantry division's version of the 
battle command system in the vehicles prior to deployment.
    The installation of this equipment at Fort Hood was deemed 
to be a much more efficient and effective way of adding this 
critical situational awareness combat effectiveness and 
fratricide prevention technology.
    More specifically, the hardware systems knowledge, and 
technical expertise are all located at Fort Hood.
    Doing this upgrade at home station takes about 14 days 
versus an estimated 60 days it would take to do the work in 
Kuwait. That 14 days is effective, is efficient, and well worth 
the time it takes to give our soldiers the best equipment 
available.
    Furthermore, doing the work at Fort Hood enhances training 
by allowing soldiers in units to work with the equipment prior 
to deployment while ample training and technical support is 
available.
    Once units arrive in theater, they can immediately begin 
training in Kuwait rather than devote critical time to 
installing the battle command system.
    The Army did not act in a vacuum. Three star 
representatives from the Army, Marine Corps and joint staff 
approved this plan of action in July of 2005. And this plan was 
further coordinated and approved by commanders in the field. 
The services revised the overall allocation to accelerate 
delivery of up-armored Humvees to the Marine Corps at the same 
time as well.
    Work on equipping the Army's 824 up-armored Humvees is 
already far along, and we are ahead of scheduled as described 
in the same classified letter to you, Mr. Chairman. All 824 
have been delivered to Fort Hood. Work has been completed on 
the majority of vehicles and more than half have already been 
shipped to Kuwait. The remainder will depart for Kuwait by 
November 1st.
    In closing, let me reiterate, there is nothing more 
important than protecting the service men and women we send 
daily into harm's way.
    The Army is totally committed to providing the highest 
level of protection to include fielding a fleet of level I 
Humvees in theater, and we have made these decisions in full 
coordination with the Marine Corps and the joint staff.
    Thank you. Before we answer your questions, General Cody 
will make a few remarks.
    The Chairman. Thank you, Mr. Secretary. Go right ahead, 
General.

 STATEMENT OF GEN. RICHARD A. CODY, VICE CHIEF OF STAFF, U.S. 
                              ARMY

    General Cody. Thank you, Chairman Hunter, Congressman 
Skelton, members of the committee. Thank you for this 
opportunity to speak to you and provide you an update of our 
progress of equipment to protect our soldiers. On behalf of our 
Army Chief of Staff, who is traveling right now in Europe Pete 
Schoomaker, and the 612,000 soldiers we have on active duty 
today, active guard reserve in over 120 countries, of which 
150,000 are serving in harm's way in Afghanistan and Iraq, let 
me offer a sincere thank you to this committee for your 
commitment in investing to the welfare of our men and women in 
uniform.
    Our soldiers know and appreciate the support of this 
committee to provide them the mission of essential equipment 
they need to prosecute and win this Global War on Terror.
    In 2003, as we transitioned from a conventional combat 
force to reconstruction security operation in irregular 
warfare, we knew we faced substantial requirements to acquire a 
variety of equipment to ensure the safety and effectiveness of 
our soldiers not just the up-armored Humvees. And as we managed 
the 17 brigade combat team force in Iraq and Afghanistan for 
Operation Iraqi Freedom (OIF) 1, OIF 2, OIF 3, and now the 
fourth rotation as well as seven National Guard brigades that 
we had to fully equip with front line equipment, the Army has 
been in a rapid fielding, equipping and managing assets of 
organizational equipment in combat with the priority there 
first and then back here for the next uptrained units.
    Because of these resource challenges that we experienced in 
our investment accounts during the 1990's not every unit was 
equipped to the necessary level. We are now rapidly closing 
that gap and must bear in mind the need to stay ready for 
future commitments by continuing to invest in the modernization 
of our Army. Our soldiers deserve no less, and I know this 
committee is committed to it.
    I just recapped on this chart up here to my right what this 
committee has enabled us to do, and what we have done for our 
soldiers to put it in context. We know the story of the 
soldiers' body armor. From the base line of September of 2003. 
We now have over 520,000 sets as well as the deltoid 
protectors.
    We know where we were with the IED jammers when this war 
started, and we now have over 21,000 IED jammers down range and 
more to follow. And there is not a single jammer back here in 
the States. We are pushing them all forward, which is an 
interesting point because right now we are getting some 
criticism and some discussion about why don't you keep some 
jammers back here in the states to train with because of the 
complexity of it, and we have made this commitment to send 
every one of them downrange to do that because we are short 
jammers.
    Likewise, we had no tactical or small Unmanned Aerial 
Vehicles (UAVs) in theater in September of 2003. We now have 
over 155. We have had to buy back the aircraft survivability 
equipment for our aircraft, and we are doing that as well as 
buy back our ammo production so that we could not only fight 
this war, but train our soldiers on each one of those rotations 
we talked about so we can get ready for the next war, and then, 
of course, the commitment in this committee and Army to buy all 
the shortages of radios.
    So it is about humvees, but it is about a bunch of other 
ready equipment that we had to buy back. And we appreciate the 
support of this committee. And I look forward to discussing in 
detail the charts that you passed out, chairman, that is 
labeled the Army plan, because quite frankly, that is not the 
Army plan. And we thank you for your support.
    The Chairman. Okay, I thank you, General Cody.
    General Cody and Mr. Secretary, what you have labeled the 
Army plan is precisely what we were informed from the Army were 
the delivery schedules of the Humvees, and let's walk that 
down. If we are wrong, I want you to show us.
    General Cody. Okay.
    The Chairman. The 75 Humvees were delivered to Fort Hood in 
July; is that accurate?
    General Cody. What I have--and I just came from Fort Hood, 
and I believe--throw the chart up of flow of up-armored Humvees 
to Fort Hood. What I have here is a copy of the fourth infantry 
division of every Humvee that came in and when it came in and 
for what unit. So side by side, I think if you aggregate what 
you have there on the left on your slide, those numbers may be 
close. What I disagree with, and I think is not accurately 
portrayed, is the arrows that say 5-month delays. If you take a 
look at the first two units----
    The Chairman. But let's walk through this first, General 
Cody. We will do it piece by piece and we will give you an 
opportunity to disagree with that delay. I want to go to the 
arrival dates first because that is the key date.So in the 
aggregate, 75 Humvees did arrive, up-armored Humvees did arrive 
in July at Fort Hood.
    General Cody. I am showing 35, for the support troops and 
for the division headquarters.
    The Chairman. When did the others come in?
    General Cody. We had 14 in 22 August, 36 by 22 August and 
then the largest traunch came in 22 September, 157 for the 
second brigade combat team, 83 on 26 September for aviation 
brigade, 157 on 9 October for the third brigade, the fires 
brigade got 42 on 10 October. The fourth brigade got 157 in 11 
October. And then the last brigade, which is first brigade, 
which is the last one deployed, got another 157 on 18 October. 
And then across the line, you will see that those numbers I 
just read, those that arrived on the end of July were shipped 
10 August.
    They went through the Central Technical Support Facility 
(CTSF), had the stuff put on, and that was the command and 
control vehicles and the forward, what we called the advanced 
party of the division headquarters that is in Kuwait now moving 
towards--and some were in Iraq doing the battle handover.
    The Chairman. How many of those----
    General Cody. 35 shipped in 10 August, first 35.
    The Chairman. So how many Humvees are in Kuwait out of 
those 824?
    General Cody. I think over 400 right now. Over 400, and the 
last 157 will be shipped November 1st.
    The Chairman. Okay, so----
    General Cody. I guess what I am telling you is those arrows 
may be--the months may be okay, in the aggregate it doesn't 
project the true picture of how they flowed in because they 
didn't all flow in in September. Four hundred and thirty didn't 
flow in in September, 319 didn't flow in August. These things 
were echeloned in based upon the production rate and based upon 
what they needed and how--what the throughput was through the 
CTSF at Fort Hood, and then they were quickly given to the 
unit, tested, and then put on boats at Beaumont and shipped. 
And it was based upon the----
    The Chairman. General Cody, we did do these three arrows in 
the aggregate.
    Now you may have traunches of 5 and 10 and 15 and 20 
vehicles. But if you didn't have--75 vehicles did not arrive in 
July, I want to know how many vehicles did arrive in July? 
Because we got these numbers from the Army.
    General Cody. Thirty-five vehicles which arrived at Fort 
Hood on 28 July.
    The Chairman. I have got your distribution picture right 
here.
    General Cody. This is from the fourth infantry Marine----
    The Chairman. I am reading this picture to you as of 24 
August. This is what your people sent over to us. It says in 
August, 319 Humvees.
    General Cody. That is a production chart. That was not what 
arrived. This is what the division command received on the 
ground at Fort Hood.
    The Chairman. So these were--so this was labeled the level 
I Humvee Distribution Plan. It said that as of--in August, you 
had 319 Humvees produced for distribution.
    It said in July, and I will send it down to you, you had 
75, and in September you had 430.
    Now, this is against--so you did--so the numbers that we 
have taken have been taken off the distribution sheet that you 
folks, your shop, delivered to us. And it says, as of 24 
August, 2005. So you may----
    General Cody. If you read that chart, it will tell you the 
fourth ID C4ISR requirement 75 in July. What was delivered in 
July was 35. And this is a distribution plan based upon the 
requirement. And you can see that those are large numbers. That 
is not how they flowed.
    The Chairman. Okay. Have all of the Humvees now been 
delivered?
    General Cody. Yes. They are all at Fort Hood and most of 
them are downrange and we have got 432 have been shipped, and 
the rest are flowing through the CTSF to boats to marry up with 
the transfer of authority time of each one of those brigades 
and battalions with the third infantry division.
    The Chairman. But they are not going to the third infantry 
division. They are going to Kuwait.
    General Cody. They are going to Kuwait.
    The Chairman. Now the ones that are in Kuwait----
    General Cody. Third infantry division is being replaced by 
the fourth infantry division.
    The Chairman. We understand. So the point is they are not 
going to third infantry division, and the committee is 
concerned by the fact they are not going to the third infantry 
division because you have soldiers in the third infantry 
division who are going out every day on operations, and they 
don't all have what is considered to be the gold standard in 
armor, which is the M1114.
    Now, the ones that are in Kuwait, as I understand--in fact, 
our staff, the reason we even knew about this plan, and because 
this wasn't briefed to us, even though we have had numerous 
armor briefings with you, the reason we know about it is 
because we had a staff member who was down and members of our 
professional HASC staff who were in Fort Hood and noticed up-
armored Humvees in Fort Hood.
    Now our understanding was that the lives of our people in 
Iraq were the most precious things that we have. And we have 
literally gone around to the Areas of Operation (AOs) around 
the world where we have up-armored Humvees, including Korea, 
and taking every single vehicle that is available and moved it 
to the ongoing operations in Iraq with the idea that when 
troops got there, they would marry up with the vehicles.
    This is a departure. So whether you say that the arrows 
that show that you had 75 vehicles coming in in July, you had 
319 in August and you had 430 in September, they must have come 
in at some point in there if they are all here now.
    General Cody. That is correct.
    The Chairman. And my point is, even if they only came in 
now, and you don't come into the end of the warfighting theater 
until after the first of 2006, you have, by all accounts, at 
least two or three months of completed production up-armored 
Humvees that could be operated right now.
    Now, the second point I would make is this: We asked our 
professional staff to contact the Army and find out how long it 
took to put the C4ISR upgrades in. The response that we got 
back was one to two days.
    Now, Secretary Harvey has just told me it is 14 days and 
people are worried that if we get it anyplace else, we could go 
to 60 days?
    Secretary Harvey. Correct.
    The Chairman. Even if you take 14 days, you have a lengthy 
delay between troops in theater, whether they are third ID, 
fourth ID, or some other unit--or even another service--
operating those Humvees. The ones that are going over to be 
married up with the bulk of your troops are going to be parked 
in parking lots in Kuwait until your troops arrive. Is that not 
accurate?
    General Cody. Mr. Chairman, if I could respectfully say a 
few things here because these, the way you present it is not 
accurate.
    And if our people told you one to two days, that is talking 
about blue force tracking, which is not Force XXI Battle 
Command, Brigade-and-Below (FBCB2), Enhanced Position Location 
and Reporting System (EPLRS) based system that the fourth 
infantry division has, which is much more complex, and is a 
ground-based system that has its own network, very similar to 
what we have--extremely similar to what we have on the Stryker 
brigade. Blue force tracking units that we put in for everybody 
is a satellite-based piece of equipment that is not FBCB2 
total. It is an SA, situational awareness thing, and that only 
does take two or three days. But when you talk about the EPLRS-
based fourth infantry division striker brigade and first 
Cavalry (CAV) division, it is an entirely different system, and 
what we have had to do is make them talk to each other.
    So two days, if you ask somebody about blue force tracking, 
is probably accurate. When you talk about this system, it is 14 
days.
    The second piece, if I could, if I could show you the two 
courses of actions that the three stars, not just at the 
Pentagon, but the three stars downrange, the commanding 
generals of the troops in the field, were faced with, as we 
looked at the fourth infantry division, and then, we can have 
the discussion about whether the decision to go with one course 
of action or the other was right or not.
    And I think that may help us through this discussion.
    The Chairman. Well go right ahead. Do you want to make a 
further presentation?
    General Cody. Yes, sir. And I think I gave you these 
slides. Course of action, one that they looked at was to 
install the systems in Kuwait. In other words, keep the--take 
the bare up-armored Humvees, take them out of Cincinnati, bring 
them down to Charleston, ship them over to Kuwait. At the same 
time, take the EPLRS-based systems that are on nonarmored 
Humvees that the fourth ID had back at home station--and they 
only had about 40 percent of their equipment of tactical 
vehicles--take them off. Pack them up. Put them in Connexes and 
ship that equipment to marry up with the Humvees in Kuwait.
    And to do that, we would have had to take almost all of 
them and put them over there at the same time that they had 
mission rehearsal exercises at the National Training Center. 
And so we were trying to balance, and moral obligation we had 
to keep these troops trained and ready and equipped at the same 
time.
    So then, under this course of action, the EPLRS-based, blue 
FBCB2 equipment would then be broken out of the Connexes, 
married up with the Humvees as they came in. We would have to 
recreate the CTSF workforce we had at Fort Hood that supports 
the rest of the Army, as well as the Stryker brigades, put that 
at Kuwait, divert some of the workers we had working building 
200 up-armored Humvees to level I and IIs that we have in 
Kuwait that is producing every month, divert that workforce to 
do this work, and it was going to take two months. And the flow 
of the brigades into Iraq would have extended and we would have 
missed the Transfer of Authority (TOA).
    And so when we showed this plan and we had an Multi-
National Corps-Iraq (MNC-I) commander and the staffs of the 
third infantry division and all the people that looked at this. 
They said, during this time frame in December--because 
remember, you said January 2006, a lot of this stuff is moving 
prior to that and some of the brigades and units are towing in 
December. During this time frame, we can't afford that 
operational slip. We said okay.
    Then we came up with the second course of action, the one 
that you have talked about. This course of action was to take 
those Humvees, move them down to Fort Hood, run them through 
the CTSF and then flow them in to marry up at the same time 
that the troops are moving for Reception, Staging, Onward-
Movement and Integration (RSOI) and move them through Kuwait 
and into theater.
    When we presented that plan, it saved us about 2 to 3 
weeks. It allowed us not to take all the EPLRS-based equipment 
away from the fourth infantry division's units that were 
training and allowed it to flow and meet the TOA dates. And 
that was the course of action that the commanders in the field, 
and my three stars and the Marines signed up to.
    And when they brought it to me, I asked these questions. 
And we meet every Saturday, as you know, with about 30 generals 
all downrange. And we had this conversation. And I asked them, 
are you short any up-armored Humvees? Will this affect any 
operational requirements? The answer was no.
    You have an edict out that no vehicles leave the FOB unless 
they are up-armored. Will this cause any problems? The answer 
was no.
    Will this affect the TOA and give you the operational 
flexibility that you want? And the answer was yes.
    And the reason why the commander in the field wanted this 
is because this unit is going into Baghdad. And the FECB2 
equipped EPLRS-based Humvee that we are now fighting as a 
combat vehicle gives it situational awareness and situational 
understanding so that you don't have the 507 maintenance 
platoon problem where they take a left turn in Baghdad and get 
lost. More importantly, everybody knows where they are.
    The commander of the division feels so strongly about it, 
he has further put it that no up-armored Humvee, EPLRS, FBCB2 
equipped will leave the Forward Operating Base (FOB) unless all 
that equipment is operational. So it is not just the armor that 
he is putting this edict on. It is the situational awareness in 
the command and control.
    So these were the two courses of action. We liked neither 
of them. We liked neither of them. But this is what we were 
faced with because as you know, we had to strip out the fourth 
infantry division's vehicles when they left Iraq, as well the 
101st, and cascade about 3,600 vehicles to the National Guard, 
leave it in country, and bring those units back, short well 
over 3,000 vehicles, and they were the next up to go into 
combat. And this is what we had to manage the entire time. And 
so this is why we picked this course of action.
    The Chairman. First, General Cody, if you asked the 
commanders if they had all the up-armored Humvees they needed 
and they said yes, they obviously weren't referring to M1114s 
because all the vehicles aren't M1114s. You also have level IIs 
and level IIIs as you know.
    Secretary Harvey. Level IIIs are not being let out of Fort 
Hood.
    The Chairman. That is true, but you have level IIs that are 
operational. So they are not all M1114s. And the point is that 
even if you took 14 days to upgrade these systems--and I think 
we should look at that pretty carefully--having a traunch of 
vehicles that are available coming off the assembly line in 
July for an operation that is not going to involve a troop 
deployment in the main, into the theater, until at the first of 
the next year, having 319 in August, having 430 in September, 
is a great deal of time for up-armored Humvees, which can be 
the difference between life and death for our troops, whether 
they are in the 3rd ID or the 4th ID. Let me complete here, 
General Cody. I will let you discuss this at some length.
    The one thing I don't like about either of these plans is, 
I thought that our plan and our agreement with the Armed 
Services and all of them and the Secretary of Defense and you, 
was that every single M1114 in the world, would be made able 
into theater as soon as possible, and that it would not leave 
theater and it would be married up with the next force that 
came in. And I would presume that when you leave, the M1114s 
even though they have got the blue force tracking and the other 
C4ISR are going to be left for other units in Iraq; Is that 
right?
    General Cody. That is correct.
    The Chairman. You are not going to take them back so they 
are not absolutely----
    General Cody. Plus they are being replaced by first CAV 
division that has the same system.
    The Chairman. But even if you had, if you don't have the 
first CAV there, and I presume if you had people that were 
taking lots of heat in one of the AOs in Iraq, you would move 
your--you have up-armored Humvees for that unit. My point is 
you have had many, many months with a fairly large number of 
Humvees at a time when our guys are taking about 30 IEDs--this 
is a departure from the way we have done this in the past.
    And this committee didn't even know about it until we had 
somebody down there at Fort Hood, and they see these in the 
parking lot. If you assume--I assume that all the Humvees you 
have got there now do have the C4ISR equipment, they do have 
the blue force tracker.
    General, unless--except for a very few that are up in the 
AO, they are parked in Kuwait. They are parked. They aren't 
shedding IED fragment up in Baghdad for other people that are 
there that don't have as good an armor. So if you want to argue 
that you have got to get these things upgraded before they are 
good to go and bring into the theater, then let's not have them 
in a parking lot in Kuwait. Let's move them up into Baghdad. 
Let me finish. And I will let you respond. Why not move them up 
into Baghdad and let the 3rd ID or others that are taking a lot 
of hits with IEDs use them or maybe move them over to the 
Marines who are taking roughly 50 percent of the casualties and 
have roughly six or seven percent of the up-armored Humvees in 
theater. Why not use those Humvees, get them out of the parking 
lots and get them up there?
    General Cody. Thank you, Mr. Chairman. First off, when you 
say that these Humvees, by not being in Iraq today, are causing 
soldiers to be ripped up by IEDs is a false statement.
    Because we are not letting non-up-armored Humvees leave the 
FOB. So every soldier that goes out----
    The Chairman. General Cody, that was not my statement. My 
statement was it is the gold standard in armor--and it does 
shed, according to your own testimony--it sheds this stuff 
better than the Level II or the level III, you still have level 
II in operation. And if you had all up-armored Humvees, you 
would take them right now, right.
    General Cody. We would.
    The Chairman. Then why not use them?
    General Cody. Because when we looked at this plan, again in 
Kuwait, we are building Humvees in the workforce and everybody 
is working pretty hard at it. Had we been presented this a year 
ago, we wouldn't have done this. We would have had to do 
something else. But because we are over 105 percent of the up-
armored production that were in theater and because of the 
number of level of up-armored Humvees that we had, level II, as 
well as the production that we had increased in Kuwait that we 
did not want to disrupt, and it wasn't us that didn't want to 
disrupt it. It was the commanders in the field that said don't 
disrupt that flow that we have got, fix the fourth ID this way, 
we will be okay, and it is the best way to do this. And so that 
is why we went into that.
    Secretary Harvey. Mr. Chairman, if I could, can I interject 
something?
    The Chairman. Absolutely, go right ahead.
    Secretary Harvey. Let's look at the two alternate courses 
of action a little bit differently. If we would have taken the 
824 Humvees and immediately put them into theater, as you 
suggested, and given them to the third ID, that would have 
accomplished a near-term objective. And let me just say 
parenthetically that level II protection is a very high level 
of protection, as you know. It is not like they don't have 
protection. However, then we come in with the fourth ID. The 
third ID is gone.
    We would have had to take those 824, put them in a forward 
operating base for six months in order to install the 
communication equipment, and therefore, we would have then put 
the fourth ID at some risk. So, we didn't have a perfect 
solution, but a solution that minimized the time that soldiers 
were in level II.
    And so, the decision that General Cody talked about, I 
think, minimizes the time that soldiers will not be in level I. 
And again, as you know, and we have talked about this in the 
past, armor is one component of force protection. This 
communication system enhances force protection by at least ten-
fold because of the situational awareness that is imparted, 
particularly in your urban surroundings. So I think this 
approach provides the maximum protection to the soldiers over 
the long-term when you take the third and fourth together.
    The Chairman. Mr. Secretary, are all the 824 now upgraded?
    Secretary Harvey. Yes.
    The Chairman. Then why aren't they in theater? Not in 
Kuwait, not in Fort Hood. If having the upgrades is the key for 
that and that is your basic reason for having this delay, then 
why not just move them into theater right now? They are 
upgraded.
    Secretary Harvey. They are being moved to theater. About 
half of them are in Kuwait and the other half----
    The Chairman. I am not talking about Kuwait. I am talking 
about in the theater.
    Secretary Harvey. I guess we could do that, but then, the 
TOWA, as you know, we can't discuss in detail, is starting in 
December.
    And so the soldiers that start flowing in on the fourth are 
going to receive these things. Again, doing it in Kuwait is----
    The Chairman. I am not talking about doing it in Kuwait. I 
am talking about the fact that they are upgraded now----
    General Cody. We could give those to the 3rd infantry 
division, but when we look at this, it takes two weeks to train 
those soldiers because it is EPLRS-based. It is like mixing a 
Commodore 128 computer with an Apple. And so we have to train 
those troops on all the message tracking because EPLRS, FBCB2 
is different.
    We don't like this, but this is what we had 5 years ago in 
the Army battle command system. And it is going to take us a 
while to fix this whole thing. And that is why the FCS spirals 
are so important to get this right.
    Third ID soldiers are not trained on it. We offered that 
solution. And we said we would send them up there, but the 
commander didn't have time to pull his people off of his other 
vehicles that they are trained on and train them on these while 
they are in the fight.
    The Chairman. Again, the last point here if the third ID--
you are talking about training third ID soldiers, and it is the 
difference between having a level II, and having a M1114, if 
they don't use the C4ISR equipment, it certainly doesn't 
prejudice them to drive a vehicle in an operation without using 
that equipment, because they don't have it right now any way on 
the level II vehicles.
    Secretary Harvey. Mr. Chairman, we can take a look into 
that. We can talk to the commanders and as you say, don't 
activate, the--don't activate the FBCB2. Give them to the third 
ID. And that is a decision, certainly that we can offer to the 
commanders to see if they want to do that in the meantime, 
before the so-called, transfer of authority.
    The Chairman. Gentleman from Missouri, Mr. Skelton.
    Mr. Skelton. The chart that you showed us that says 
equipping our soldiers----
    General Cody. Yes, sir.
    Mr. Skelton. Is that a true and accurate representation of 
the fact as you understand them?
    General Cody. They are rounded up numbers, Congressman 
Skelton, random order of magnitude showing from----
    Mr. Skelton. Are they accurate, to the best of your 
ability?
    General Cody. This one right here?
    Mr. Skelton. Yes. Are there any inaccuracies?
    General Cody. They are pretty accurate, yes, sir.
    Mr. Skelton. In looking at the September, 2003 list, all 
the way from soldier body armor, where roughly 10 percent of 
our soldiers were equipped, only 500 Humvees, up-armored 
Humvees, they are already down to radio production, it appears 
to me harking back to my Boy Scout days, where I lived and 
learned that the motto was to be prepared, that you were not 
prepared to enter and perform the required duties on September, 
2003, to fully protect our soldiers, as compared to what you 
have now, and as I go all the way down the list from soldier 
body armor all the way down through radio production.
    Either you were unprepared, or there is another explanation 
for the great discrepancy. Would somebody please tell me 
whether you were unprepared or whether there is some other 
explanation for this chart?
    General Cody. Well, I testified before this committee in 
1999, after Task Force Hawk. In that testimony, I believe I 
said that the services had investment accounts that were $5 
billion short of their requirements. In that case, we were 
discussing the aircraft survivability equipment, as you know, 
Mr. Chairman.
    Those moneys never came, and we are putting them in now. 
That was for Infra-Red (IR) countermeasures and EPLRS and stuff 
like that. I don't know the full history. I guess I could go 
back and study the history.
    I do know that when we started this war, we sent spent--and 
as I know, I have testified before this committee--we spent 
$3.2 billion meeting the CENTCOM required task for the bridging 
equipment, the radio equipment, the C4ISR equipment that they 
wanted for the Fifth and Third Divisions, the radio 
requirements, and, yes, the upgraded small arms protective 
inserts (SAPI) that we couldn't build fast enough, as you know, 
until we got the six vendors. So you can go across all of our 
different equipment. We were an equipment-short Army when we 
entered this war, yes.
    Mr. Skelton. Mr. Secretary, you made a reference to the new 
HMMWVs having situational awareness. I think General Cody 
touched upon that. Would you again explain that for us, either 
one of you, please?
    Secretary Harvey. You mean the HMMWVs that have the EPLRS?
    Mr. Skelton. Whatever you mean by situational awareness, 
please.
    Secretary Harvey. The situational awareness means that, in 
the HMMWV, the soldiers have a display in front of them, which 
shows where they are in their position, just like you have on 
your car navigation. It shows where all their fellow soldiers 
are, and where all the other HMMWVs are, as well as the 
Bradleys, as well as the M1s, if that is the formation.
    General Cody. And the enemy.
    Secretary Harvey. And the enemy. So you have situational 
awareness, which means you know where you are on the 
battlefield or in the town or in the city, and you know where 
your fellow soldiers are. That situational awareness gives you 
tremendous ability in the area of force protection, in combat 
effectiveness and fracture site prevention.
    Mr. Skelton. And the new HMMWVs would have that.
    Secretary Harvey. These 824 HMMWVs, which are part of the 
Fourth ID, would have that.
    Mr. Skelton. One last question. How much longer can we 
expect to use the HMMWVs in Iraq, today carrying the level II 
armor kits that were not designed for them?
    Secretary Harvey. As I said in my opening statement, for 
the Marines, they will have all level I by April of next year--
and let me also say in the Marines, level II kits, they provide 
a very high level of protection. Then the Army will be fully--
fully level I in July of 2007, but prior to that, we will have 
enough HMMWVs so that from--a level I HMMWV so that, from a 
operational point of view, the commanders will be able to send 
soldiers only out in level I prior to that.
    General Cody. Sir, if I could follow on. As you know, we 
are recapping about 900 HMMWVs back here in the States. We are 
upgrading the engines. I think this gets to your question, 
upgrading the engines and the chassis. The decision to move to 
the M1151s and the M1152s will allow us the flexibility to go 
up-armored and carry that load. That is what we are moving to.
    Mr. Skelton. Mr. Chairman, thank you.
    The Chairman. I thank the gentleman. The gentleman from 
Colorado, Mr. Hefley.
    Mr. Hefley. Thank you very much, Mr. Chairman. Gentlemen, 
help me understand, it has been noted that the fourth ID needed 
to equip their M1114 HMMWVs with the C4ISR upgrades prior to 
arriving in the theater, the Striker brigades and the First Cav 
are equipped with similar C4ISR capabilities and technology. 
What did these units do to prepare their vehicles for 
deployment, and did all of their vehicles have these C4ISR 
technologies, or did they simply make do in theater with what 
they had?
    General Cody. Which unit are you talking about, the Stryker 
Brigade, sir?
    Mr. Hefley. Well, the M1114 HMMWVs, yes.
    General Cody. Well, first off, we have done this--I want to 
make sure it is clear. When the Fourth Infantry Division came 
home, they left in round numbers well over 1,600 of their 
vehicles in country. So they were short back here for a year. 
We had to issue and swap around brigade sets of equipment so 
they could put their EPLRS on these systems and train with 
them.
    Unlike the Stryker Brigades, which we have not done that 
to, and they are full up--so we didn't have that swapping of 
gear. We left--the Stryker was a different story, so it is a 
different paradigm that we had to deal with.
    The fourth Infantry Division, all four of their brigades, 
had just enough of the C4ISR blue force, not blue force 
tracking but FBCB2, to do their training, but they weren't full 
up. In fact, the division--I can give you in a classified 
setting, for the whole year, was certainly not C1, because of 
the shortage of equipment.
    So that goes back to the discussion of how we were able to 
train them, each one of their brigades, with the barest amount 
of equipment, and barest amount of HMMWVs that were not up-
armored, and then make the decision of whether to ship all that 
stuff and then marry it up, those two courses of action that I 
showed you.
    That is why we picked the course of action that we picked. 
So we are trying to balance our training requirements, 
Congressman Hefley, as well as the right way to balance what we 
were shipping into country.
    Mr. Hefley. To follow on, typically as you have indicated, 
sir, units leave behind their equipment for successor units. If 
the fourth ID is replacing the third ID, which uses a different 
type of C4ISR technology, can it be assumed that the third IDs 
equipment will not be used at all by the fourth ID. If not, 
then what will happen to the third ID's vehicles when they 
leave Iraq?
    General Cody. That is a great question, Congressman. That 
was part of the--why the theater commanders made the decision. 
They want to take those vehicles and cascade them and thicken 
up the other units with them. That is what they are do going to 
do with them.
    Secretary Harvey. If they are level I.
    General Cody. If they are level I, they will fill up and 
increase the percentages again, and that was what was 
attractive to them as they looked at this.
    Mr. Hefley. Thank you very much.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thanks for having both of you with us this morning. The 
hearing of course is focusing on a CENTCOM requirement for 
armored vehicles and up-armor. It appears you are finally 
getting close to meeting the need. But looking down the road, 
what could be the next pressing readiness issues that the Army 
will phase, that it could move to the front burner sooner so 
that we can start paying attention to be of help to you. Do you 
have other issues that you feel we might need to pay attention 
to as well, Mr. Secretary, or General?
    Secretary Harvey. Let me just say--and General Cody 
mentioned this. I think we are doing an adequate job here, and 
that is the counter IED, the countermeasure IED devices. As you 
can see, we have 20,000 in theater, and as the General said, we 
are diverting all the production lines into theater. So I think 
we are generally meeting the commanders' needs, but it is very 
tight. In the ideal situation, we would have some to train on 
also.
    General Cody. Well, I agree with my Secretary's assessment. 
But if you step back from this and look strategically, first 
off, no one in the Army leadership is happy with the production 
schedule we have. We would like to have it all faster. This 
committee has helped us in several, several ways, from IED 
jammers to the up-armoring and everything else. We may disagree 
on how we handle it and how we distribute it. But I think we 
all agree we want this stuff as fast as we can.
    But if you have to step back and look at this 
strategically, we have to ask ourselves, how did we get here? 
It is because we did not modernize. Why did we not modernize, 
and who made the decisions? Today, we are getting ready to 
discuss here in the Quadrennial Defense Review (QDR) and 
discuss in this body and other bodies the Army's modernization 
plan, which is the future combat system.
    I don't think that we want to make the same mistakes or not 
have the same vision that we had that got us to this point. We 
are going to be in this long war. General Abizaid came here and 
testified two weeks ago. I agree with his assessment that this 
will be a long war.
    So if we step back, we have to ask, what type of 
modernization accounts do we want to fund? What are the threats 
out there? And are we funding to the right modernization 
accounts? I think the paths that Secretary Harvey is 
restructuring the future combat system--and General 
Schoomaker--are right on target, especially on the battle 
command side. This third ID, fourth ID problem, will go away 
when we do the spirals, and we will fix our battle command. 
Battle command is a combat force multiplier and a force 
protection issue. We want to see them first. We want to shoot 
them first. We want to avoid them first. We want to know where 
our buddies are at all times.
    So I think it is our modernization accounts, Congressman 
Ortiz, that we need to pay attention to right now. We will get 
through this with the help of Congress and with these type of 
oversight meetings where we stress ourselves on these things, 
so that we all get it right. We are going to get this piece 
fixed. We have got to get ready for the next fight.
    Mr. Ortiz. I seem to agree with you, but we need to stay 
ahead of the curve. I can, I guess, speak for the committee 
that we are here, because we want to help you. But we need to 
know what is ahead of us so we can get in a position to really 
respond to your needs.
    Secretary Harvey. Congressman, as the General said, it is 
important that we carry out the future combat system program as 
the baseline plan is presented. So, as the General said, in 
order for us not to get in this situation we are in today, we 
have got to continue to modernize the force, and the Future 
Combat Systems (FCS) technology, one of the prime technologies, 
is the network. And we have plans to spiral that in as well as 
the other advanced technology, into the current force, in real 
time, starting in FY 2008. So we need your total support of 
that program as planned in order to ensure that this force is 
able to fight the Global War on Terror in the long run.
    Mr. Ortiz. Thank you both. Thank you so much for being with 
us today.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, and I thank you, 
gentlemen, for being here.
    As I try to listen carefully to what is being said, I am 
trying to see what people in the field and people back home are 
hearing or not hearing us say today. What I am sensing is that 
we are doing a good job in planning and preparation, but we are 
not getting the maximum amount of protection to our soldiers in 
the field as quickly as possible.
    Now, your comment about seeing first and shooting first is 
absolutely critical, but number one priority, and I am more 
than willing to be corrected, is to protect our soldiers. Yes, 
they are getting shot at, and we want to be as offensive as 
possible. But the problems occur with these continuous car 
bombings and roadside bombings.
    So the capabilities that you describe-- again, I am not the 
one to make the call, may need to be sacrificed in terms of 
training and capability and having this combat system available 
to them in order to put the protective priority in the field. 
Now, again, I may be missing something. I am not trying to 
second guess you, but I am just telling you what I have heard 
today.
    Secretary Harvey. Congressman, we believe that this plan 
that we have formulated in July, with the Marines and with the 
Joint Staff and importantly with the combatant commanders, with 
the commanders down field, down range, provides the maximum 
protection to our soldiers. We really believe that, because it 
takes the least amount of time to install this equipment at 
Fort Hood rather than putting it in the theatre and then taking 
it back out in the middle of the employment and installing it.
    Remember what we are doing here is that these 824 HMMWVs 
with the so-called FBCB2 equipment is even better than a M1114. 
It is the next level of protection. Armor provides a certain 
level of protection. But as the committee knows, even under 
certain situations, armor can protect you in an M1 tank. So the 
situational awareness gives the soldier the knowledge to avoid 
being put into a situation. It gives him the knowledge that he 
may be able to avoid an IED. So this is the next level of 
protection beyond armor, situational awareness, that gives you 
that enhanced level of force protection. To do that at Fort 
Hood takes the minimum amount of time. And our fourth ID 
soldiers get to theater. If we have to take those M1114s out 
and put in the so-called FBCB2. That is a much longer time they 
would be without it.
    So, overall, given the big picture, we believe that this 
provides the maximum protection to our soldiers, which is by 
and far the number one priority that I have as the second, and 
the chief and the advice have. The well-being of our soldiers, 
that protect our soldiers, is above anything else in this Army 
absolutely.
    General Cody. Let me see if I can also add a different 
perspective. If you remember from the OIF 2 rotation, the 
combatant asked for the tank and Bradley units to come over 
with one tank company and two of his tank companies in HMMWVs. 
That was the one-third heavy, two-third light. Halfway through 
that rotation we shipped back over 100-some odd tanks and 100-
some odd Bradleys. At that time, they said, oh, by the way, 
make sure they have the embedded battle command, because--even 
in the tanks and Bradleys--the embedded battle command, the 
FBCB2, gives us much more situational awareness.
    I bring that up to you because, when we built this plan 
when we came from theater about how many up-armored HMMWVs, it 
was based on one-third, two-thirds force for patrolling inside 
of Baghdad. Today, it is a three-quarter heavy, one-quarter 
HMMWV force. This is why the commander in the field is saying, 
I have got a lot of tanks over there compared to what we had in 
OIF 2.
    It is not just HMMWVs that are providing the force 
protection. We have a lot of tanks of Bradleys that are in 
there that weren't in that second rotation that we picked them 
back up because of this threat.
    Mr. Hayes. As I say, it is a complex subject.
    General Cody. It is.
    Mr. Hayes. Secretary Harvey, everything we can do to 
protect soldiers, my point would be--and I think the chairman 
has said it in another way--if we had sophisticated turn-off 
equipment but have the maximum armor protection, we want to 
make sure it is there. I thank you.
    The Chairman. Thank the gentleman.
    The gentleman from Massachusetts, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman, and thanks for holding 
this important hearing. I join my colleagues in echoing your 
concerns.
    Thanks to our witnesses for coming before us this morning.
    I am deeply troubled for the need for today's hearing. Time 
and time again, I am joined with members of this committee, 
colleagues on both sides of the aisle and pressing our nation's 
military and its civilian leadership to ensure that men and 
women, they risk their lives to protect our country, are fully 
equipped and properly protected.
    Two years ago, two of my constituents, Brian and Alma Hart, 
received the kind of news that a parent should never have to 
receive. Their son, Private First Class John Hart was killed 
when the unarmored HMMWV he was driving was sprayed with 
bullets. Just days before he died, Private Hart had called his 
father to tell him how unsafe he felt riding in HMMWVs that 
lacked bulletproof shielding or reinforced doors.
    We have come a long ways since then, in no small part due 
to the activism and dedication of parents like John and Alma 
Hart who have been outspoken advocates for getting us moving in 
the right direction. As leaders of the country and leaders of 
military, I think it is imperative that we do everything we can 
to make sure that people like Private Hart--that his colleagues 
get everything they need and when we send our troops in harm's 
way, we need to do everything that we can do to give them what 
they need.
    You have indicated that the Marines will be all level I by 
April of 2006, and the Army will be level I prior to July 2007. 
But prior to that, we will reach the level when level Is will 
only be sent to the field. When will the Army reach this level 
I point relative to HMMWVs?
    Secretary Harvey. In terms of absolute numbers, as you 
indicated, Congressman, that is July of 2007, right now, the 
commanders in the field are determining when, before that, 
there will be adequate HMMWVs so that they can meet their 
deployment, making certain assumptions, their deployments in 
theater with all level Is. I don't have a specific answer, 
because that is being determined as we speak.
    Mr. Meehan. Last November, November 17th, in a hearing on 
the status of U.S. forces, I asked General Schoomaker and 
General Hagee whether or not the Pentagon is tracking a number 
of casualties that resulted from attacks on unarmored vehicles. 
Both had stated that they knew of no such information during 
the hearing, but followed it up to say that the Joint 
Improvised Explosive Device Task Force had recently conducted a 
multidetailed analysis on this.
    Is there any more current information that is available?
    General Cody. I have it. Sir, as you know, we stood up the 
Joint Task Force. We stood it up October of 2003, and now it is 
under the guidance and leadership of Secretary England as a 
Deputy Secretary of Defense. It is classified--the chart I am 
holding here. We briefed this committee--Chairman, you asked 
for that briefing a while back. We briefed, and we did a 
comparison between up-armored, level II, level III. We did a 
comparison on Bradleys and M1113s. We also did a comparison of 
what type of devices and jamming devices. We are getting 
better. Then, if you like, Chairman, we can come back over with 
General Votel and lay that out for you.
    Again, I am glad you asked the question.
    The Chairman. I think it is about the time to have another 
scrub with General Votel and the task force.
    General Cody. We can set that up, sir. But, again, we do 
this also to make the risk assessment to make sure that what we 
are doing in terms of level IIIs, how quickly we need to pull 
them out, as well as, was there a marked difference between 
level II and level I.
    That all came into play with these decisions that the 
commanders in the field were making and what we were making in 
terms of when to swap out the level Is for operational reasons. 
I don't think I want to say anything more on that, because we 
are doing better, but I don't want to put that information out.
    Mr. Meehan. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentlelady from 
Michigan, Mrs. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman, and I 
certainly appreciate you calling this very important hearing 
this morning, and to both of you, gentlemen, we certainly 
appreciate your service to our nation under unbelievably 
challenging times, and I appreciate you being here.
    I am trying to follow this entire thing as well and what 
has happened and where we are and what we might be able to do 
as we look to the future.
    I would just say this. I come from Detroit. We are not the 
glitziest people in the world, but one of the things we know 
how to do is build things like automobiles, vehicles. In fact, 
during World War II, our area was known as the arsenal of 
democracy because we had the manufacturing capabilities that 
literally built the armaments that led the world to peace 
during that time.
    In the case of the HMMWV, are we in a situation, perhaps, 
that because of a sole source, that this is a situation we 
have. And as we are grilling you on the hot seat here, I think 
there is a lot of--many fingers in the pie here of our 
procurement processes, what has happened in the past, to use my 
own personal analogy again. I mean, if we have a particular 
vehicle General Motors (GM) is making that customers want it, 
they will make it. They ratchet up the assembly lines, and you 
don't start a vehicle at the beginning of an assembly line and 
have to send it to this place and that place and this place and 
so on. That thing rolls off the end of the line. You put the 
key in the ignition and drive it away.
    Is there something that we can do to--in fact, General, you 
used the term as to how we are going to modernize. Don't we go 
back a bit and, say, if we are going to modernize, use the old 
common sense of American ingenuity of how we actually built 
things?
    Secretary Harvey. Let me address that. And then I will turn 
it over to General Cody. That is a very important question. I 
will tell you what the Army has done in that regard. We talked 
about the M1114. We haven't talked a lot about the M1151 and 
the M1152, which is the next generation.
    In that--and the M1151 and the M1152 will be built in such 
a way that a basic frame will be produced, and then armor from 
a multitude of vendors will be added on to it, and that armor 
can be taken off if it is not being used in a situation which 
requires it. That is to say, in a fort operating base or in the 
United States which will produce wear and tear, it will provide 
the same level of protection as the so-called M1114.
    Unfortunately, historically, the Army got themselves into a 
position where we had a sole source provider of the M1114. The 
M1151 will have a basic frame and multitude of armors in an 
assembly line situation.
    In order to address that situation, that led us to level II 
armor. These are kits that go on the basic existing HMMWVs. We 
had eight, in that regard, we had eight of our depots producing 
these add-on kits, level II. We had the Air Force, the Navy, 
and we had five outside vendors. We had something like 13 to 15 
suppliers producing level II add-on armor. In the future, as we 
convert over to the so-called M1151, we will have a multitude 
of vendors producing that armor. So we will be in a very modern 
situation.
    In the meantime, we had to face the reality of the M1114. 
As you may know and remember, the production rates have been 
taken from a production of 30 per month in the fall of 2003 up 
to today to 650 a month.
    Mrs. Miller of Michigan. If I could interrupt. What 
percentage is that line running at though? I mean, if they went 
from 30 to 600, I mean, are you running that thing 24/7.
    Secretary Harvey. 24/7, and it has been expanded. It is not 
the original line in order to do that. This particular supplier 
has increased its capacity. He was capacitated out at 30, so he 
has gone up by a factor of 20 by increasing the size of the 
plant and equipment.
    Mrs. Miller of Michigan. Still, is that a single source 
then for that?
    Secretary Harvey. Yes, but as the M1115 and M1152 come on, 
we will have a multitude of sources with one frame supplier, 
right. So we will get ourselves into a situation--
unfortunately, the intellectual property in that case was not 
owned by the Army. In this case, it was owned by the Army in 
the M1151. So, historically--I wasn't around. So I don't know 
how this happened. But we have changed, and now we are in a 
situation which is ideal. We have a multitude of vendors, and 
we own the intellectual property. You may want to add to my 
remarks.
    General Cody. I think the Secretary recapped where we are 
going. I think it is important, Madam Congresswoman, to 
remember that we have to understand that we never designed the 
HMMWV to be a crew-served fighting vehicle except in the delta 
companies of our light divisions where we mounted tows on them 
for the anti-armor for the light forces.
    Now, in this fight, we have had to modify them not just 
with all bringing up blue force tracking--if it was satellite 
based--or EPLRS-based FBCB2, but we also modified them with 
cupolas, protection, put in the full intercom for the driver, 
assistant driver and for the gunner up top. So we have now made 
this thing basically a fighting vehicle. So that complicates 
the issue also.
    So when we looked at it back before the Secretary came, 
about how do we get these cupolas and fighting systems, it 
would have slowed down the production system of who was making 
them at the time, so we had to build the market and the 
capacity in Kuwait to do that. That is what we are doing. At 
the same time, we had to put air conditioning units on. We 
never designed them for the weights. We had to put bigger 
engines in them, bigger springs, everything else.
    So this thing has been--although it is slow and it appears 
slow, there is a whole bunch of things that we did to this 
vehicle that we never dreamed we would do.
    Mrs. Miller of Michigan. Thank you.
    The Chairman. I thank the gentlelady.
    The gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, for 
calling this hearing. I would like to welcome the Secretary and 
the General. Thank you very much for your service to our 
country. This committee has been especially active on pushing 
the issue of armoring our forces and protecting the vital means 
of our service members. In light of your decision to send 
equipment to a stateside unit preparing to go to war so that it 
can properly train first, I am particularly concerned about how 
this decision compares to decisions made concerning the Army 
National Guard and the Army Reserve.
    It seems to me that the guard and the reserve are badly 
under-equipped, and here you have made a decision to deliver 
equipment to the Fourth Infantry early so that they can 
properly train before they go into combat. But it seems to have 
been decided many times over in the past that the Army would 
not fully equip our guard and reserve so that they can train 
properly before they are activated into combat service.
    So given the degree to which you are relying on the guard 
and reserve in this war, when are we going to see the equipment 
they are supplied become equivalent to their active duty 
counterparts.
    Secretary Harvey. General Cody is going to address that 
question.
    General Cody. Thank you, Madam Congresswoman. As you know, 
when we started this fight, the National Guard units in 
particular, like the 39th, the 30th and the 81st, were the 
first brigade combat teams that we got ready to fight side by 
side as brigade combat teams in OIF-2. Like their combat 
support and combat service support brethren in the active 
force, they were short equipment. So what we did was we left 
equipment from the 101st, the Fourth ID in Iraq and Third ID in 
Iraq, as stay-behind equipment, and then we fielded first to 
those brigades all the brand new individual--what we call rapid 
fueling initiative for the soldier.
    All the new equipment went to the 81st, the 39th and 30th 
before it went to active units that are getting ready to go. 
But we are still short vehicles. We are still short radios and 
everything else in the National Guard as well as our active CSS 
units. That was the shortfall I talked about. So that is what 
drove us to the stay-behind equipment sets.
    As you get into these rotations, it was also depleting our 
active component, like the Fourth ID and the 101st who came 
back left 30 percent of their rolling stock there for the 
National Guard units. Then they had to train up and go back in 
a year later, because we never ramped down the way everybody 
predicted.
    So that has been what we have been wrestling with. The goal 
is to get the National Guard equipment based upon going to 
modularity. The goal is to get their equipment by 2011. We have 
$21 billion in the budget, which is 5 percent more than we have 
for the active component vehicles, just in rolling stock, 
because the guard is short. The biggest thing we are tackling 
on the guard is, they have 14,000 M35s, A5s that are 35 years 
old. That is the deuce and a half. We have got to get them out 
of the force.
    So we are getting that, and we have a balanced plan to do 
that, but it will take until about 2007 or 2008 to see that, 
because we just barely got the procurement dollars in the 2005 
supplemental that we could put in so we could start buying back 
this shortfall.
    Secretary Harvey. But let me add, in the near term, that no 
unit regardless of whether they are active or National Guard 
goes into theater unless they are in a fully-equipped position. 
As the General said, we had to juggle, but no unit, as we say, 
goes over the berm unless they are totally armored, so every 
National Guard unit is fully equipped with the force protection 
and all the other weapons that they need.
    In the long term, what the General is referring to is to 
modernize so that they are totally stand alone and don't have 
to continue to stay behind. So that works, and if the budgets 
that we have submitted are passed, we will have the resources 
to do that.
    Again, as we have said in the past, we cannot do it without 
the National Guard and the reserves. They are a very, very 
important part of this and have given us the head room that we 
need to perform this force transformation, which we call 
modularity. So it is very important to the guard, very 
important to us.
    Ms. Bordallo. I am very pleased to hear that. Thank you. I 
thank the gentleman.
    The Chairman. I thank the gentlewoman.
    The gentleman from Michigan, Mr. Schwarz.
    Dr. Schwarz. Thank you, Mr. Chairman.
    I would like to follow up a little bit on the line of 
questioning of my colleague from Michigan, Mrs. Miller. As of 
this morning, the sole source provider of the chassis for the 
HMMWV is still AM General. That is correct, is it not?
    General Cody. Yes.
    Dr. Schwarz. Their individuals, right from the shop floor 
this morning, indicate that they are producing about M1152 
chassis a day, the numbers of the M1114 down, M1151, M1152s up. 
Well and good, but the other information--and this is 
consistent over the last several months as we ask the good 
folks from the United Auto Workers (UAW) who are the workers on 
the line at AM General making these chassises--the capacity is 
100 a day.
    So, the there is a reason perhaps that you could produce 
100 chassis a day, but you still couldn't armor them, so that 
the holdup, perhaps, is in the armorer. But if we are producing 
52 and people on site who are doing the production tell us that 
we could produce 100, if given the go-ahead to do so, per day, 
why are they not doing it?
    Where is the hold up? Is the hold up, they don't have the 
go-ahead to do it, or is the hold up, we could produce 100 and 
that would be fine but you would never have the capacity to 
armor those chassis?
    General Cody. Well, I am not the expert on production 
lines. As you know, I am not the acquisition executive. But 
having dealt with this for three years, a long pole in the tent 
has always been the armor materiel. I have some extras back 
here; if the Chairman would allow me to call one forward that 
could answer this.
    The Chairman. Sure, go right ahead.
    General Cody. General Speakes runs our force protection 
programs for all our equipment, and he has been intimately 
involved in all of this.
    So, Steve, if you could answer the good Congressman's 
questions about the chassis versus the armor.
    General Speakes. Yes, sir. Sir, let me go ahead and address 
this issue in the context of what the Army is trying to do, as 
the Secretary and General Cody both outlined earlier this 
morning. What we are into is a comprehensive strategy that is 
designed to increase the flow of armor to the theater, and also 
to increase the quality of that armor protection.
    So, for example, back this last June, we were only 
producing 550 systems. As you know, that is a substantial 
upgrade from where we were. As we look right now at the month 
of October, we are up to 700 systems. I call them systems, 
because, as you recognized, it is AM General producing the 
frame.
    Then what we right now have is a sole source solution for 
the armored solution we are putting on them. As we move to the 
M1114, we will move to the next generation which will 
essentially give us the ability to add and remove armor. We 
will own the property rights to the armor, and we will be able 
to then increase the production of frames, because armor is no 
longer the determining step. We are working in collaboration 
with the manufacturers right now, so that, at this point, we 
move from the 550 to where we were earlier this summer to 700 
right now.
    What we are in the process of doing is moving up to 1,100 
frames, which is where we are going to be in February. That 
1,100 frames will be supported by a variety of armored 
solutions. What it will have moved into then is the start of 
armored solutions for the next generation of vehicles, which is 
the M1151 and M1152, also produced by AM General but which has 
a difference kind of basic construction in terms of its ability 
to hold armor. So we are moving now to an era where we can have 
flexible armor, removable armor and also the ability to 
modernize our armor solutions because, as we all recognize, the 
battlefield is getting more threatening rather than less.
    So that is an explanation of the depth of our program as we 
move from where we were this last summer to where we are now to 
where we will be in February of 1,100 and then about enhancing, 
where we own the property rights to the next generation of 
armored solutions. And essentially then the only determining 
step becomes the ability to produce frames, and then the 
ability to apply the rest of the ingredients that make up a 
total armored solution.
    General Cody. So bottom line, over the next few months, we 
will be doubling our production rate.
    Dr. Schwarz. Okay. So when we meet again, which we 
inevitably will--I checked with AM General and the folks there, 
what they tell me, if the plan goes as you foresee, is that the 
numbers of frames produced, M1151, M1152, which is what they 
are moving to, will be significantly more than are being 
produced today, because you will have broken through and found 
a solution or have a solution to the armoring. Am I tracking 
here?
    General Speakes. Yes.
    Dr. Schwarz. Thank you very much.
    I thank the gentleman.
    The Chairman. Thank you very much.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you very much, gentlemen. We are finding 
down here--if we could make this the rapid fire round, I have 
five or six questions. If I can ask them quick and you give 
quick answers, we can get to several of them.
    First of all, General Cody, are you satisfied with where we 
are at with regard to these issues of armor and equipment for 
Afghanistan?
    General Cody. You are talking about Task Force Phoenix, Dr. 
Snyder?
    Dr. Snyder. Yes.
    General Cody. No. I have talked to the commander in the 
field over there. We would like to push more. The issue becomes 
the threat assessment, and the Secretary and I and the chief 
have talked about it. In fact, we want to push aside 250, but 
they have done a mission analysis and threat assessment. We 
have asked them to go back and relook at it.
    Dr. Snyder. The second question doesn't have anything to do 
with this hearing today, but there has been discussion of press 
reports about some dissatisfaction with regard to the guard 
members with regard to their $15,000 reenlistment bonus for 
reenlisting while they are overseas. Are you familiar with that 
issue at all, that it was taken back, they are not going to get 
it? Do you know anything about that?
    General Cody. I am not familiar with that. I do know, 
though, there has been some discussion about reenlistment 
bonuses. I will tell you, in each case--the Sergeant Major in 
the Army and I discussed this with the Secretary the other 
day--in each case where a soldier had a reenlistment bonus that 
for some reason because of an MOS change or contract change, we 
are going back, because we have the authority, the Secretary, 
and the title goes to the soldier and we will just put it 
aside.
    Secretary Harvey. If that is the issue, if it is a change 
of MOS and then he doesn't get his bonus, we will fix that, if 
that is the issue you are referring to.
    Dr. Snyder. We will follow up with your folks.
    Secretary Harvey. Sure.
    Dr. Snyder. There has been ongoing discussions over the 
last several years about the level of troop strength in Iraq. 
We have had two episodes now where we have an election, troop 
strength--you all brought troop strength up sometime before 
that. Things settle down. We drop it back, then bring the level 
up, as we did at the most recent election, in order to provide 
security for the election.
    In the multiple times we have asked this, General Myers, 
Secretary Rumsfeld, about the level of troop strength, they say 
that the commanders get whatever they want in terms of what 
they need to get their mission done. My question is, has there 
been a system created, do you think, General Cody, in your 
years in the Army, where people have gotten the word they 
should not be asking for additional troop strength, because, 
you know, it is just really not going to be coming your way?
    Because we have a situation where we can pick up the paper, 
can read--people, you know, people on the ground in uniform 
saying they can't get their job done along the Syrian border: 
We can't get this done without additional strength. Do you 
think we have created a system where people ought to get the 
word we ought not to ask for additional troop strength even 
though we think we need it?
    General Cody. I know most of these generals, and they are 
tough. They are also loyal, but they are tough. I will tell you 
that I believe--and I trust them. I have got my sons over 
there. If any one of those general officers needs more troops, 
I guarantee you, they will ask for them. They may be told, no--
I don't know what the discussions are that go on at that level. 
But I trust those guys. They are tough. If they want them, they 
will ask for them.
    Dr. Snyder. Then, General Cody, based on your years of 
experience--we haven't had, really, any discussion on the House 
side about Senator McCain's amendment with regard to 
interrogation standards that passed the Senate 90 to 9.
    I am just asking this as an open-ended question. Because we 
have had a flare of press reports here, a front line story, a 
lengthy story or a program a couple of days ago. We had the 
incident in the papers this morning about the allegations of 
the burning of corpses. We have had these ongoing press 
reports.
    It has seemed to me that Senator McCain's amendment, by 
laying down a bright line in statute that would apply to both 
the people in uniform and any governmental agencies out of 
uniform representing the United States, that would be helpful 
in terms of how war is conducted in the future, avoiding the 
kinds of incidents, some of these incidents we have had in the 
past. What is your personal opinion on that?
    General Cody. Well, first, Mr. Congressman, I haven't read 
what the Senator has put in. I probably should go back and read 
it.
    Dr. Snyder. That is all right.
    General Cody. I have been pretty busy with wrestling and 
pushing stuff forward. My professional opinion is no different 
than my personal opinion on these matters. That is, we have to 
establish a highly disciplined, highly moral, highly ethical 
leadership, chain of command. We have to instill those things 
into our soldiers as part of the training. Policy letters and 
decrees and everything else don't fix these issues. Tough 
leadership up and down the chain of command, and that is where 
the Chief and the Secretary and I are focusing every day on 
developing our leaders, training our leaders, training our 
soldiers, to the ethics and the moral and the physical and the 
mental discipline, as well as training our leaders to take care 
up and down.
    Because that is the only way that we will remain--we are 
still the best army in the world and the most disciplined army 
in the world. That is the only way we are going to be able to 
retain that, by making sure we have the right leadership at 
every level.
    Dr. Snyder. Thank you, gentlemen, for being here.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    The chairman and Congress haze suggested you go ahead in 
pushing these specially-equipped FBCB2 out of Kuwait up into 
the theater. When we make that decision, it seems to me that 
there would be a cost to that. That special gear will 
deteriorate and degrade. Some of it will be destroyed, and then 
the fourth ID will show up fully trained, I guess, to really 
use it. There will be some lag between once they get there, and 
it is reaching its full capabilities and capacities. Can you 
speak to us about what you think the cost might be?
    General Cody. I don't know what the cost will be, but it 
was an operational decision. If I can give you a scenario: If 
you are a platoon leader in the Third Infantry Division and I 
am a platoon leader in the Fourth Infantry Division and I am 
replacing you, I am going to show up in my HMMWV and we will do 
the right seat-left seat ride. But during the timeframe that 
this is going on, as you know, it is during the elections. It 
is during quite a bit of changing where they are operationally, 
where General Casey is maneuvering forces. They did not do 
right seat-left seat right on vehicles and have this highly 
important swap over vehicles. That was part of the issue.
    So if it were a cost, we would pay it. But it was an 
operational decision not to. I mean, if there were dollars 
attached to this, plus or minus, we would have paid it if it 
made operational sense. But to the commanding generals down 
range, it did not make sense.
    Secretary Harvey. That is really their decision. For the 
record, we should say that FBCB2 is Force XXI Battle Command 
Brigade-and-Below, just so that is in the record. We are using 
too many acronyms.
    Mr. Conaway. Thank you for that, Mr. Secretary. I would 
appreciate using fewer.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Connecticut, Mr. Simmons.
    Mr. Simmons. Thank you, Mr. Chairman. I apologize to our 
witnesses for being late and not hearing their testimony. But 
it is my understanding that the issue under consideration is 
whether or not up-armored HMMWVs and equipment that provides 
protection for our forces is being deployed in an expeditious 
manner. As somebody who got involved with the up-armor issue a 
couple of years ago, somebody who served for almost four years 
in Vietnam--so I have a sense of what it feels like when you 
are out there and you don't feel like your equipment is fully 
up to what you need to protect yourself.
    I guess I think, to the families that read the news 
articles, it is unfortunate because sometimes news articles 
distort the truth and distort the picture. But for those 
families that I know, who have sons and daughters over there, 
the idea that equipment that could protect them and keep them 
safe, the idea that has been manufactured, it has been 
produced, but it hasn't been distributed--it is sitting off in 
a parking lot somewhere--I guess that is a matter of concern.
    So I would like to hear reassurances that equipment is 
moving to the field as rapidly as possible and that we are not 
holding it, waiting for a deployment when, in fact, it should 
be up, forward for those who are in country.
    Secretary Harvey. Congressman, we believe that is the case. 
If we look at the big picture of the Third ID and Fourth ID and 
in conjunction with what we are doing with the Marines, we 
believe that this is the optimum situation for protecting the 
soldier overall as rapidly as possible. So we firmly, in the 
Army, believe that.
    General Cody. I agree with the Secretary,
    Mr. Congressman. In fact, some of the Fourth Infantry 
Division Brigades have already begun their transfer of 
authority and relieved the people in place. The Fourth 
Sustainment Brigade has already taken over its area in Iraq and 
released the Third Infantry Division's Sustainment Brigade. So 
they are already there. If you look on the chart, we gave them 
17 on the 28th of July.
    We got it all equipped, and we shipped them over. They went 
into Kuwait, did a two-week RSOI, the reception, staging, 
onward, integration and then did their ten-day transfer of 
authority. So they are equipped with the up-armored HMMWVs, and 
they relieved in place the their Infantry Division Sustainment 
Brigade. We have several of those brigades and battalions 
starting now, all the way up through the January timeframe. 
This is a big outfit, and a decision was made, unlike OIF-1 and 
2 where we changed everybody in 90 days, if you remember, we 
decided to stretch these things out, so that we weren't 
changing battalions and brigades simultaneously throughout this 
theater and giving this enemy this edge. So this also had to 
come into play as we looked at this.
    Mr. Simmons. If I could just follow up, are there up-
armored HMMWVs in Continental United States (CONUS) in that are 
sitting and have not been deployed?
    General Cody. There are up-armored HMMWVs right now that 
came off the line of AM General for the Fourth combat team of 
the Fourth Infantry Division, 157 of them. They were shipped on 
11 October. They are not sitting at Fort Hood. They have the 
EPLRS base----
    Secretary Harvey. FBCB2.
    General Cody [continuing]. For battle command systems put 
on them, and then they will be put on boats and shipped in a 
timely manner so that they meet up with the Fourth Brigade that 
has a transfer of authority with the Third Infantry Brigade 
outfit, and it all throws within that 45- to 50-day time frame. 
So to say they are sitting would not be an accurate statement. 
They have gone from the plant to have the required equipment 
that we deem necessary for the additional survivability and 
control and also meets the time line of them being able to go 
through Kuwait with their training and get into accordance with 
what General Vines wants.
    Mr. Simmons. Are there soldiers driving around in Iraq that 
are not armored?
    General Cody. No.
    Mr. Simmons. Bases?
    General Cody. There are some HMMWVs they have at level III, 
about 157 give or take a few, that are on the FOBs, that do 
drive around the FOBs, but they are restricted. They can't go 
off base.
    Mr. Simmons. Do any of those bases ever get hit with mortar 
attacks?
    General Cody. Yes, they do, but the up-armored HMMWV will 
not--that is not going to stop a mortar situation, although the 
shrapnel will. We are dealing with mortars in a different way, 
as you know.
    Mr. Simmons. So it wouldn't stop a direct hit, but it would 
stop a near miss with shrapnel. Can you visualize any 
contingency where people might have to evacuate a base, which 
would take those vehicles off base?
    General Cody. No.
    Mr. Simmons. So that is the problem.
    Secretary Harvey. But it has never happened.
    Mr. Simmons. I understand it never happened. The World 
Trade Center situation never happened either--war is hell. You 
all know that. These things can happen.
    What I am suggesting, and what I think the concern is that 
some parents may feel that their son or daughter is riding 
around in a vehicle that is not adequate to this situation, 
whereas other vehicles are sitting back in the States waiting 
to be deployed. I understand the logic of what you are saying, 
but you have to understand how some of those folks may feel 
about it.
    Secretary Harvey. We have 25,000 level I and II HMMWVs in 
theater.
    Mr. Simmons. I thank you for your testimony.
    I thank the gentleman.
    The Chairman. I thank the gentleman from Connecticut. I 
thank the ranking member for putting up with this fairly long 
hearing on this very focused issue.
    Gentlemen, I think we have had a good hearing here. I think 
that--let me give you several thoughts that have been derived 
from the last couple of hours of testimony.
    First, Mr. Secretary, while you just answered the gentleman 
from Connecticut, you said that level III vehicles, that is 
add-on type stuff that is put on generally in theater, that 
included the scrap iron from Iraqi machine shops, that is being 
kept in the forward operating bases.
    Level II kits, and that is considered to be not as good as 
the M1114s, are deployed on operations. So if you want the real 
answer to the gentleman, we do have people who are taking hits, 
who are having IEDs blown on them on a regular basis who don't 
have M1114s.
    General Cody, you and I, I think, had a good back and forth 
on this, on the effect in theater. I think that you are a good 
soldier, and you are dedicated, and you are steeped in the 
tradition of warfighting, as your family is, and we respect 
that very much. When an IED goes off, it is all physics. When 
you have a 155mm round or 105mm round go off at three or four 
meters, as you know from looking at the tests at Aberdeen, it 
is a function of how much steel or other armor you have between 
the body of the American soldier and that explosion, and a 
certain percentage of fragment may or may not get through that 
particular armor and hit our soldiers. At that point, it is all 
a function of the mass of the fragment and the velocity at 
which it travels. You know, as well as--well, I think, the 
upgrades that are manifest in the M1114--and we don't need to 
go into the details in this open session--but you are aware of 
the upgrades which in some cases will stop a much larger degree 
of that fragmentation than the level II vehicles that are being 
used right now.
    So the question is, will you, in some of those IED attacks, 
have fragment that doesn't enter the vehicle department where 
M1114, where it might enter the vehicle department according to 
the laws of physics and wound American soldiers? The answer is 
yes.
    So it is desirable to M1114s in the field as early as 
possible. I think we agree on that. Now, having gone around 
Robin Hood's barn--and I think you have explained in some 
detail, and I think with some merit, the various considerations 
that you undertook in making, putting this policy together--we 
are left with these base facts.
    Mr. Secretary, you own these vehicles when they come off 
that assembly line. Now, you owned 75 vehicles in July. You 
owned another 319 in August, and you owned another 430 in 
September. Now it obviously takes at least 130 days to deliver 
them. You have a certain checkout you want to do on these 
vehicles, and then you have the installation of this C4ISR 
package put in place.
    It is a long time to own those vehicles when we are under a 
policy to get every vehicle we could find, not just in CONUS, 
but in the world between the soldiers who are experiencing 
these IED blasts and the blasts on those roadsides in Iraq. 
Even if you accept this 14 days for installation period, you 
are talking about the first tranche of vehicles so the delay 
or--if General Cody objects to the term delay--the time lapse 
between you owning these vehicles from the manufacturer and 
these things being on the road in Iraq, protecting an American 
soldier, so that falls down on that first tranche from five 
months to 4.5 months.
    Let us take 14 days out of it and say you do them in CONUS. 
The second tranche, you cut that down from four months to 3.5 
months, and the last tranche from three months to 2.5 months.
    Now, we can quibble about how long they are marked in 
Kuwait, how long they are parked at Fort Hood and what you need 
some of them to train on. But if your policy is directed at 
getting steel between the soldiers who are operating on a daily 
basis and the high intensity IED environment and the blast that 
will be coming at them, we have some fairly long time periods 
between you taking ownership of these vehicles and those 
vehicles being in a protective mode for those soldiers on the 
roads in the areas of operation in Iraq.
    Now, you told me, Mr. Secretary, it would take six months--
you were told it would take six months if you did this in 
Kuwait. The question that I think I would ask--and you are an 
industrialist, you are a businessman, you would drill down into 
that and say, Tell me how it takes 14 days in Fort Hood and you 
can't get it done in less than 6 months in Iraq? I certainly 
wouldn't accept that.
    Secretary Harvey. I think it is two months, Mr. Chairman.
    The Chairman. I would drill down on two months and say, Why 
does it take four times as long as it takes at Fort Hood to 
have that done? Do we need more people? Do we need a tiger 
team?
    We obviously have the ability to fix sophisticated 
technical equipment in theater. We have gained that ability 
with respect to our aerial platforms and our land-based 
platforms. Why can't we do this?
    And so I think that clearly, when all is said and done and 
you have demonstrated that you want to have the C4ISR equipment 
on these vehicles, you still have a long time between your 
taking ownership of these vehicles and the vehicles being in an 
operational mode.
    Now, these things happen, and I think you have explained 
fairly clearly how you walk through this process and you came 
to the judgment that you came to. I don't agree with the 
results. I think that it is too long between manufacture 
completion and these things being in operation, especially 
under the policy that we have had of trying to get every single 
M1114 in the world that is available between the soldiers and 
the road as quickly as possible.
    So my recommendation is that you try to come up with some 
kind of a plan that could utilize these M1114s in theater as 
quickly as possible, and use some of that time when they would 
be waiting for the 4th Infantry Division to marry up with their 
equipment, use some of that time in protecting people who are 
deployed right now. I think you can come up with a plan that 
does that.
    So thank you for attending our hearing today. We will have 
a follow-up hearing, and the committee looks forward to your 
continuing to work on this issue.
    And Mr. Skelton, the gentleman from Missouri, I think has a 
closing comment. Go right ahead.
    Mr. Skelton. Let me thank the chairman again for calling 
this hearing.
    The American people are interested in this subject; it is 
not just limited to our Armed Services Committee. This is 
evidenced by the fact that some time ago, folks in Jefferson 
City, Missouri, raised money and had locally prepared and 
manufactured armor plating done there, which eventually ended 
up in Iraq, getting through the red tape, but they got it done.
    So--the folks back home are very deeply interested in 
protecting their neighbors' sons and daughters who are over 
there, so I hope you will follow through on the recommendations 
coming from the Chair and from the other comments that we have 
had. I thank you for your appearance.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Any closing comments any 
of you Generals would like to make?
    Secretary Harvey. Let me say thanks for this hearing, Mr. 
Chairman.
    I think we share that mutual interest in ensuring that the 
soldier gets the maximum protection, and we believe our policy 
is one of providing that maximum protection. And that is what I 
try to emphasize, which is a combination of, as you say, 
getting the steel between the blast and the soldier, but also 
in the long run, giving him the knowledge so that he never even 
gets into that situation.
    So we want to try to prevent him from ever being exposed to 
an IED by having that advanced situational awareness, and that 
is our long-range objective.
    The Chairman. So I thank you, gentlemen, for participating, 
and let's have another--we will have another hearing soon and 
see where we go from here. And let's all pull together.
    Secretary Harvey. Thank you.
    General Cody. Thank you.
    [Whereupon, at 11:06 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                            October 20, 2005

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 20, 2005

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 32994.001
    
    [GRAPHIC] [TIFF OMITTED] 32994.002
    
    [GRAPHIC] [TIFF OMITTED] 32994.003
    
    [GRAPHIC] [TIFF OMITTED] 32994.004
    
    [GRAPHIC] [TIFF OMITTED] 32994.005
    


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 20, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32994.006
    
    [GRAPHIC] [TIFF OMITTED] 32994.007
    
    [GRAPHIC] [TIFF OMITTED] 32994.008
    
    [GRAPHIC] [TIFF OMITTED] 32994.009
    
    [GRAPHIC] [TIFF OMITTED] 32994.010
    
    [GRAPHIC] [TIFF OMITTED] 32994.011
    
    [GRAPHIC] [TIFF OMITTED] 32994.012
    
    [GRAPHIC] [TIFF OMITTED] 32994.013
    
    [GRAPHIC] [TIFF OMITTED] 32994.014
    
    [GRAPHIC] [TIFF OMITTED] 32994.015
    
    [GRAPHIC] [TIFF OMITTED] 32994.016
    
    [GRAPHIC] [TIFF OMITTED] 32994.017
    
    [GRAPHIC] [TIFF OMITTED] 32994.018
    
    [GRAPHIC] [TIFF OMITTED] 32994.019
    
    [GRAPHIC] [TIFF OMITTED] 32994.020
    
    [GRAPHIC] [TIFF OMITTED] 32994.021
    
    [GRAPHIC] [TIFF OMITTED] 32994.022
    
    [GRAPHIC] [TIFF OMITTED] 32994.023
    
    [GRAPHIC] [TIFF OMITTED] 32994.024
    
    [GRAPHIC] [TIFF OMITTED] 32994.025
    
    [GRAPHIC] [TIFF OMITTED] 32994.026
    
                                  <all>

</pre></body></html>
